ra
INDEX TO APPENDICES
Appendix A, Memorandum of the United States Court
of Appeals for the Ninth Circuit, Filed April 23,
2019............................................. ................................... la
Appendix B, Order of the United States District
Court for the Central District of California, Filed
February 15, 2018......................................................... 3a
Appendix C, Denial of Panel Rehearing by United
States Court of Appeals for the Ninth Circuit, Filed
10a
July 18, 2019
Appendix D, Treasury Inspector General's publication
of details of former IRS employee Monica Hernandez,
11a
Dated May 1, 2011
Appendix E, Assistant Attorney General's report to
Congress on stolen identity refund fraud, Dated April
12a
10, 2013
Appendix F, Declaration of Ronal Francis Guilmette,
13a
Dated November 9, 2013
Appendix G, Letter from US Court of Federal Claims,
Dated May 1, 2014...................................................... 17a
Appendix H, Civil Minutes of District Court, Filed
19a
January 30, 2015
Appendix I, USPS Return Receipt for Certified Mail
21a
Dated December 24, 2013
Appendix J, Order of the United States Tax Court,
Dated December 12, 2011......................................... 22a
Appendix K, IRS Ruling on Federal Tort Claim,
mailed March 1, 2017................................................ 23a
Appendix L, IRS publication "National Taxpayer
Advocate 2011 Annual Report to Congress Executive
Summary Preface & Highlights", Dated December 31,

2011

24a

la
Appendix A - Memorandum of the United States
Court of Appeals for the Ninth Circuit,
Filed April 23, 2019
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NORMAN DOUGLAS DIAMOND,
Plaintiff-Appellant,
v.
UNITED STATES OF AMERICA; DOES, Unknown
Employees of the United States,
Defendants-Appellees.
No. 18-55376
D.C. No. 2:i7-cv-06327-ODW-PJW
MEMORANDUM*
Appeal from the United States District Court
for the Central District of California
Otis D. Wright, II, District Judge, Presiding
Submitted April 17, 2019**
BEFORE: McKEOWN, BYBEE, and OWENS, Circuit
Judges.
Norman Douglas Diamond, a resident of Japan,
appeals pro se from the district court’s judgment
dismissing his action seeking tax refunds and
damages arising from various interactions with
defendants. We have jurisdiction under 28 U.S.C. §
1291. We review de novo a dismissal on the basis of
res judicata. Stewart v. U.S. Bancorp, 297 F.3d 953,
956 (9th Cir. 2002). We affirm.
The district court properly dismissed Diamond’s
claims for unauthorized disclosure as barred by the
doctrine of res judicata because Diamond litigated
* This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. R 34(a)(2).

2a
AppendixA
these claims in a prior action that resulted in a final
judgment on the merits. See Tahoe—Sierra Pres.
Council, Inc. v. Tahoe Reg’l Planning Agency, 322
F.3d 1064, 1077 (9th Cir. 2003) (requirements for res
judicata).
The district court did not abuse its discretion in
denying Diamond’s motion to transfer venue as to
nonresident Diamond’s internal revenue tax claims
because venue was not proper in any district court.
See Jones v. GNC Franchising, Inc., 211 F.3d 495,
498 (9th Cir. 2000) (standard of review); see also 28
U.S.C. § 1402(a)(1) (providing that any action filed in
district court against the United States “may be
prosecuted only ... in the judicial district where the
plaintiff resides”). To the extent that Diamond
alleged damages claims arising from defendants’ acts
or omissions in the District of Columbia, denial of
Diamond’s request to transfer venue was not an
abuse of discretion because Diamond failed to show
why it was in the interest of justice to transfer rather
than dismiss without prejudice. See 28 U.S.C. §
1406(a) (“The district court of a district in which is
filed a case laying venue in the wrong division or
district shall dismiss, or if it be in the interest of
justice, transfer such case to any district or division in
which it could have been brought.”).
AFFIRMED.

3a
Appendix B - Order of the United States District
Court for the Central District of California,
Filed February 15, 2018
United States District Court
Central District of California
NORMAN DOUGLAS DIAMOND Plaintiff,
v.
UNITED STATES OF AMERICA, Defendant.
Case No. 2:17-CV-06327-ODW (PJW)
ORDER GRANTING DEFENDANTS’ MOTION TO
DISMISS [23] AND DENYING PLAINTIFF’S
MOTION TO TRANSFER [29]
INTRODUCTION
I.
On August 28, 2017, Plaintiff Norman Diamond
filed a Complaint that asserted multiple claims for
relief against Defendant United States of America
related to his taxes and the unauthorized disclosure
of tax return information. (See generally Compl., ECF
No. 1.) On December 22, 2017, the United States
moved to dismiss the Complaint due to improper
venue, failure to state a claim, and lack of subject
jurisdiction matter based on sovereign immunity.
(Mot. to Dismiss (“MTD”), ECF No. 23.) Plaintiff
opposed the MTD, filed a supplemental brief, and
moved to transfer the case to the United States
District Court for the District of Columbia. (ECF Nos.
24, 29, 30, 33.) The United States filed a Reply to
Plaintiffs Objection to the Motion to Dismiss. (ECF
No. 35.) Plaintiff then filed a Sur-Reply. (ECF No.
38.) For thefollowing reasons, the Court GRANTS
Defendant’s Motion to Dismiss and DENIES
Plaintiffs Motion to Transfer. (ECF Nos. 23, 29.)1
FACTUAL BACKGROUND
II.
1 After considering the papers filed in connection with the
Motions, the Court deemed the matter appropriate for decision
without oral argument. Fed. R. Civ. P. 78(b); C.D. Cal. L.R. 7-15.

4a
Appendix B
The Complaint is 54 pages and the accompanying
exhibits total another 401 pages. As best the Court
can understand, Plaintiff has three general claims for
relief (l) refunds for various years that he overpaid
his taxes, (2) return or abatement of amounts the IRS
wrongfully collected, withheld, or applied as penalties
beyond those authorized by law, and (3) the wrongful
disclosure of his social security number. His second
claim is pleaded in the alternative as a violation of
the Federal Tort Claims Act, or as a Bivens claim.
(Compl. TH1 119-21.) He alleges that the United
States wrongfully disclosed his social security
number in filings in his previous Tax Court cases, as
well as his case in the United States Court of Federal
Claims. {Id. TH1 124-25.) Plaintiff has filed numerous
cases with similar if not identical allegations against
the United States. E.g., Diamond v. United States,
107 Fed. Cl. 702 (2012), affd, 530 Fed. App’x 943 (Fed.
Cir. 2013), cert, denied 134 S.Ct. 1344 (2014);
Diamond v. United States, 115 Fed. Cl. 516 (2014),
affd, 603 Fed. App’x 947 (Fed. Cir. 2015), cert, denied
135 S.Ct. 1909 (2015); Diamond v. United States, No.
CV 13-8042-GHK AGR, 2015 WL 64805 (C.D. Cal.
Jan. 5, 2015), affd, 688 F. App’x 429 (9th Cir. 2017);
Diamond v. I.R.S., No. CV 14-9196'GHK AGR, 2015
WL 3545046 (C.D. Cal. June 4, 2015), affd sub nom.
Diamond v. United States, 688 F. App’x 445 (9th Cir.
2017). Plaintiff is a resident of Japan. (Compl. 1} 4.)
III.
LEGAL STANDARD
A. Motion to Dismiss for Improper Venue
If an action is filed in the “wrong division or
district” a court may dismiss the action or, “if it be in
the interest of justice” transfer the action to an
appropriate district or division. 28 U.S.C. § 1406(a).
In federal courts, determining the appropriate venue

5a
Appendix B
“is governed entirely by statute.” Zumba Fitness,
LLC v. Brage, No. CV 11-5361-GHK, 2011 WL
4732812, at *1 (C.D. Cal. Oct. 6, 2011) (citing Leroy v.
Great W. United Corp., 443 U.S. 173, 181 (1979)).
When deciding a motion to dismiss for improper
venue, unlike a Rule 12(b)(6) motion, the Court need
not accept the pleadings as true and may consider
facts outside the pleadings. SeeR.A. Argueta v. Banco
Mexicano, S.A., 87 F.3d 320, 324 (9th Cir. 1996). Once
a defendant raises an objection to venue, the plaintiff
bears the burden of establishing that the selected
venue is proper. Bio Properties, Inc. v. Bio Intern.
Interlink, 284 F.3d 1007, 1019 (9th Cir. 2002).
B. Motion to Dismiss for Failure to State a Claim
A court may dismiss a complaint under Rule
12(b)(6) for lack of a cognizable legal theory or
insufficient, facts pleaded to support an otherwise
cognizable legal theory. Balistreri v. Pacifica Police
Dep’t, 901 F.2d 696, 699 (9th Cir. 1990). To survive a
dismissal motion, a complaint need only satisfy the
minimal notice pleading requirements of Rule
8(a)(2)—a short and plain statement of the claim.
Porter v. Jones, 319 F.3d 483, 494 (9th Cir. 2003). The
factual “allegations must be enough to raise a right to
relief above the speculative level.” Bell Atl. Corp. v.
Twombly, 550 U.S. 544, 555 (2007). That is, the
complaint must “contain sufficient factual matter,
accepted as true, to state a claim to relief that is
plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009).
The determination whether a complaint satisfies
the plausibility standard is a “context-specific task
that requires the reviewing court to draw on its
judicial experience and common sense.” Id. at 679. A
court is generally limited to the pleadings and must

6a
Appendix B
construe all “factual allegations set forth in the
complaint ... as true and ... in the light most
favorable” to the plaintiff. Lee v. City of L.A., 250
F.3d 668, 688 (9th Cir. 2001). But a court need not
blindly accept conclusory allegations, unwarranted
deductions of fact, and unreasonable inferences.
Sprewell v. Golden State Warriors, 266 F.3d 979, 988
(9th Cir. 2001). However, for a pro se plaintiff, like
Diamond, the complaint is to be liberally construed
and “must be held to less stringent standards than
formal pleadings drafted by lawyers.’” Erickson v.
Pardus, 551 U.S. 89, 94 (2007).
Where a district court grants a motion to dismiss,
it should provide leave to amend unless it is clear that
the complaint could not be saved by any amendment.
Manzarek v. St. Paul Fire & Marine Ins. Co., 519
F.3d 1025, 1031 (9th Cir. 2008) (“Dismissal without
leave to amend is improper unless it is clear, upon de
novo review, that the complaint could not be saved by
any amendment.”). Leave to amend, however, “is
properly denied ... if amendment would be futile.”
Carrico v. City and Cnty. of San Francisco, 656 F.3d
1002, 1008 (9th Cir. 2011).
IV.
DISCUSSION
A. Improper Venue
The United States asks the Court to dismiss for
improper venue Plaintiffs claims for federal tax
refunds, unauthorized collection actions, and
wrongful disclosures in the Court of Federal Claims.
(MTD 6-8 (citing 28 U.S.C. § 1391(e)(1), 1402).) 28
U.S.C. § 1402(a)(1) provides that any action filed in
district court against the United States may be
prosecuted only ... in the district where the plaintiff
resides.” As a resident of Japan, Plaintiff does not
reside in any judicial district. Topsnik v. United

7a
Appendix B
States, 554 F. App’x 630, 631 (9th Cir. 2014)
(unpublished) (citing 28 U.S.C. § 1402(a)(1)). As a
foreign resident, Plaintiffs claims for refunds and
wrongful collections must be pursued exclusively in
the United States Court of Federal Claims. Id.
Plaintiffs remaining claims for unauthorized
disclosure of personal information, as well as his
alternative Federal Torts Claims Act and Bivens
claims can be brought in any district where the acts
or omissions complained of occurred. 28 U.S.C. §§
1391(e)(1), 1402(b). However, the only events in the
Complaint that occurred in Los Angeles are Plaintiff s
claims for unauthorized disclosure of his personal
information related to his cases before the United
States Tax Court, which were heard in Los Angeles.
(MTD 7.) For all of his other claims, venue in this
Court is improper.
Plaintiff agrees that this Court is not the proper
venue for his claims, and has filed his own Motion to
Transfer to the District Court for the District of
Columbia. (Opp’n 2, ECF No. 24; Pl.’s Mot. to
Transfer, ECF No. 29.) However, that Motion must be
denied because at least two of Plaintiffs claims, his
claims for refunds and wrongful collections, must be
pursued exclusively in the Court of Federal Claims.
To be clear, the Court does not opine on the
jurisdiction of the Court of Federal Claims or whether
it is the appropriate venue for Plaintiffs other claims.
Additionally, this Court cannot transfer a case to the
Court of Federal Claims because of venue defects.
Topsnik, 554 F. App’x at 631 (citing Fisherman’s
Harvest, Inc. v. PBS & J, 490 F.3d 1371, 1378 (Fed.
Cir. 2007)).
All of Plaintiffs claims, except his claim for
unauthorized disclosure of personal information

8a
Appendix B
related to Tax Court cases in Los Angeles, must be
dismissed due to improper venue.
B. Plaintiffs Claim for Unauthorized Disclosure
in the Tax Court Case
The United States concedes that Plaintiffs claims
for unauthorized disclosure of his social security
number that arise from his Tax Court cases in this
district are appropriately brought in this district.
(MTD 7.) Plaintiff brings these claims under 26 USC
§§7431, 6103, and alternatively 5 U.S.C. § 552a.
(Compl. ^ 122.) However, Plaintiff brought identical
claims in a previous lawsuit, and those claims were
rejected on their merits by the Ninth Circuit.
Diamond v. United States, 688 F. App’x 429, 430 (9th
Cir. 2017). As the Ninth Circuit explained, the
government cannot be held liable for disclosures that
were expressly authorized by statute. Id. Plaintiffs
claims for unauthorized disclosure in the Tax Court
are thus prohibited by the plain terms of 26 U.S.C. §
6103(h)(4)(A). Because Plaintiff has already filed a
lawsuit over these exact same claims against the
United States that was dismissed on the merits, these
claims are also barred by the doctrine of claim
preclusion. See Stewart v. US. Bancorp, 297 F.3d 953.
957 (9th Cir. 2002). These claims must therefore be
dismissed with prejudice because leave to amend
would be futile.
V.
CONCLUSION
For the reasons discussed above, the Court
GRANTS Defendant’s Motion to Dismiss for improper
venue and DISMISSES WITHOUT PREJUDICE
Plaintiffs claims related to (l) refunds for various
years that he overpaid his taxes and (2) return or
abatement of amounts the IRS wrongfully collected,
withheld, or applied as penalties beyond those

9a
Appendix B
authorized by law. (ECF No. 23.) Additionally, the
Court GRANTS Defendant’s Motion to Dismiss
Plaintiffs claims for unauthorized disclosures that
occurred in Los Angeles for failure to state a claim
and DISMISSES those claims WITH PREJUDICE.
(ECF No. 23.) Plaintiffs Motion to Transfer is
DENIED. (ECF No. 29.) The Clerk of the Court shall
close the case.
IT IS SO ORDERED.
February 15, 2018
OTIS D. WRIGHT, II
UNITED STATES DISTRICT JUDGE

10a
Appendix C - Denial of Panel Rehearing by United
States Court of Appeals for the Ninth Circuit,
Filed July 18, 2019
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
NORMAN DOUGLAS DIAMOND,
Plaintiff-Appellant,
v.
UNITED STATES OF AMERICA; DOES, Unknown
Employees of the United States,
Defendants-Appellees.
No. 18-55376
D.C. No. 2:i7-cv-06327-ODW-PJW
ORDER
BEFORE: McKEOWN, BYBEE, and OWENS, Circuit
Judges.
Diamond’s petition for panel rehearing (Docket
Entry No. 27) is denied.
Diamond’s motion for publication (Docket Entry
No. 29) is denied.
No further filings will be entertained in this
closed case.

11a
Appendix D - Treasury Inspector General's
publication of details of former IRS employee Monica
Hernandez,
Dated May 1, 2011
Treasury Inspector General's public posting:
May 1, 2011
Monica Hernandez Indicted for Making and
Subscribing a False Income Tax Return, Wire
Fraud, and Aggravated Identity Theft
On April 14, 2011, in California, Monica Hernandez
was indicted on three counts of making and
subscribing a false income tax return, six counts of
wire fraud, and one count of aggravated identity
theft.
Hernandez was an employee of the Internal
Revenue Service (IRS) and worked as a part-time
data entry clerk.1
As part of her duties, Hernandez inputted
taxpayers' information into the IRS's computer
system. During the course of her employment with
the IRS, Hernandez stole and/or misappropriated
information of other taxpayers, listed on various
IRS forms, including Form 1099-B. This particular
form lists a taxpayer’s income received and
withholdings withheld from interest and dividend
earnings. Hernandez falsified and forged Forms
1099-B to reflect her own personal information.
Although, in most cases, Hernandez did not submit
the falsified 1099-B forms with her own tax returns,
she used these forms to obtain large tax refunds. As
a result of her fraud, Hernandez was able to obtain
refunds from the IRS in the amount of $175,144.2

1 E.D. Cal. Indict, filed Apr. 14, 2011.
2 Id.

12a
Appendix E - Assistant Attorney General's report to
Congress on stolen identity refund fraud,
Dated April 10, 2013
The same Assistant Attorney General who opposed
petitioner and spouse in US Court of Federal Claims
and US Court of Appeals for the Federal Circuit,
when the IRS did not make good on refunds due to
petitioner and spouse, made this report to Congress
on Stolen Identify Refund Fraud.
Assistant Attorney General's report to Congress^
STATEMENT OF
KATHRYN KENEALLY
ASSISTANT ATTORNEY GENERAL
TAX DIVISION
BEFORE THE
SPECIAL COMMITTEE ON AGING
UNITED STATES SENATE
FOR A HEARING EXAMINING
TAX FRAUD AND IDENTITY THEFT
For the public the risk is clear; SIRF crimes can and
do arise in any setting where the lure of fast money
puts at risk personal identifying information,
including at state agencies, student loan providers,
the military, prisons, companies servicing Medicaid
programs - the list is growing all too long.
While the IRS will make good on any refund that is
due to the taxpayer, there are unfortunately
inevitable burdens and delays while this is sorted out,
including a profound sense of violation. And most
fundamentally, when a stolen identity is used to
commit refund fraud, all taxpayers are impacted by
the loss to the Federal Treasury.

13a
Appendix F - Declaration of Ronal Francis Guilmette,
Dated November 9, 2013
Name^ Ronal Francis Guilmette
E-mail Address: rfg@tristatelogic.com
Address: 1751 East Roseville Parkway
Apt 1828
Roseville, CA 95661
Phone Number: 916-786-7945
Witness in Pro Per
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Norman Douglas Diamond
Plaintiff
v.
Internal Revenue Service
and
U.S. Department of Justice
Defendants.
CASE NUMBER: CV 13-8042-GHK(AGRx)
DECLARATION OF RONAL FRANCIS
GUILMETTE
IN SUPPORT OF PLAINTIFF'S COMPLAINT
Hearing Date:
Time:
Judge: The Hon. George H. King
Courtroom: 650, Los Angeles - Roybal
In support of plaintiffs Complaint, I, Ronal
Francis Guilmette, declare as follows:
1. I am a witness to exhibits that I received from
United States Tax Court and United States Court of
Federal Claims.
2.1 have personal knowledge of all facts stated in
this declaration, and if called to testify, I could and
would testify competently thereto.
3. On December 11, 2012, I downloaded through
the Pacer system a digital PDF file of Defendant's

14a
Appendix F
Reply in Support of Motion To Dismiss, filed
September 17, 2012 in United States Court of Federal
Claims Docket No. i:i2-cv-00358-CFL (or 12-358 T),
Norman Douglas Diamond and Zaida Golena Del
Rosario v. United States! the downloaded digital PDF
file includes defendant's Exhibit 3.
4. On September 11, 2013, United States Tax
Court mailed to me a copy of respondent's Exhibit 2-R
in United States Tax Court Docket No. 14482-10SL,
Norman Douglas Diamond v. Commissioner of
Internal Revenue.
5. A social security number was visible in both
exhibits.
6. The name and address of Norman Diamond
were visible in both exhibits.
7. The Pacer account that I used is registered to
me personally.
8.1 am not a lawyer or accountant! I did not claim
to be one in my Pacer Registration! and I did not
claim to be one in my communications with United
States Tax Court.
9. No one has informed me that I would be
authorized to have Norman Diamond's social security
number disclosed to me! I have not requested such
authorization! and I am not aware of any reason why
I would have such authorization.
10. I am prepared to make another declaration,
signed and notarized if requested, with attached
copies of both exhibits as received, without redaction.
11. If reimbursed for expenses, I am prepared to
be deposed by any party, under oath or affirmation if
appropriate.
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on November 9, 2013 in Roseville,

15a
Appendix F
California
SEE ATTACHED NOTARY CERTIFICATE
Is/
Ronal Francis Guilmette
Witness in Pro Per
CALIFORNIA
JURAT
WITH
AFFIANT
STATEMENT
[x] See Attached Document (Notary to cross out lines
1-6 below)
[ ] See Statement Below (Lines 1-5 to be completed
only by document signer [s], not Notary)
{lines 1-6 crossed out}
State of California
County of PLACER
Subscribed and sworn to (or affirmed) before me
on this
9th day of NOVEMBER, 2013, by
(1) RONAL FRANCIS GUILMETTE
proved to me on the basis of satisfactory
evidence to be the person who appeared before
me (.) (,)
(and
(2)
N/A
proved to me on the basis of satisfactory
evidence to be the person who appeared before
me.)
{The Great Seal of the State of California}
HOLLY A. ROYE
Commission# 1975768
Notary Public - California
Placer County
My Comm. Expires May 18, 2016
Signature /s/
Signature of Notary Public

16a
Appendix F ’
-- OPTIONAL Though the information below is not required bylaw,
it may prove valuable to persons relying on the
document and could prevent fraudulent removal and
reattachment of this form to another document.
Further Description of Any Attached Document
Title or Type of Document1 DECLARATION OF
RONAL FRANCIS GUILMETTE
Document Date: 11/09/2013 Number of Pages: 2
Signer(s) Other Than Named Above: N/A
{Right thumbprint of signer #1 space left blank}
{Right thumbprint of signer #2 space left blank}

17a
Appendix G • Letter from US Court of Federal
Claims,
Dated May 1, 2014
United States Court of Federal Claims
Howard T. Markey National Courts Building
717 Madison Place, NW
Washington, DC 20005
Office of the Clerk of Court
(202) 357-6406
May 1, 2014
Norman Douglas Diamond
3-37-7-103 Shin-machi
Ome City, Tokyo, 198-0024
Japan
Dear Mr. Diamond:
We have received your correspondence of February 10,
2014, again inquiring about when and how a
document submitted by the government in Court of
Federal Claims Case No. 12-358 was sealed by staff
in the Clerk's Office. As explained to you previously,
the exhibit to the government's September 17, 2012
Reply in Support of its Motion to Dismiss-a copy of a
tax return containing personal identifiers—was sealed
pursuant to Rule 5.2 of the Rules of the Court of
Federal Claims:
Rule 5.2.Privacy Protection for Filings Made with
the Court.
(a) Redacted Filings. Unless the court orders
otherwise, in an electronic or paper filing with the
court that contains an individual's social security
number, taxpayer-identification number, or birth
date, the name of an individual known to be a
minor, or a financial account number,, a party or
nonparty making the filing may include only:
(l) the last four digits of the social-security
number and taxpayer-identification number;

18a
Appendix G
(2) the year of the individual's birth;
(3) the minor's initials; and
(4) the last four digits of the financial account
number.
The sealing of documents in compliance with Rule 5.2
is a custodial function performed by Clerk's Office
staff to protect the privacy of parties appearing before
the court. It may occur on the date that a document
is filed, or as soon as practicable after the existence of
information protected by Rule 5.2 is discovered in a
filing or attachment.
This is all the information that we have on this
matter. The Clerk's Office cannot respond to any
further inquiries.
Sincerely,
Staff Attorney

19a
Appendix H - Civil Minutes of District Court,
Filed January 30, 2015
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES - GENERAL
Date January 30,
CV
Case No.
2015
13-8042-GHK (AGR)
Norman Douglas Diamond v. Internal
Title
Revenue Service
George H. King, United States
Present:
District Judge
The Honorable
None
None
Beatrice Herrera
Tape No.
Deputy Clerk
Court Reporter /
Recorder
Attorneys Present for
Attorneys Present for
Defendants
Plaintiff
None
None
In Chambers: Plaintiffs
Proceedings:
Request for Compliance
On February 3, 2014, Plaintiff filed a motion for
leave to file under seal a "Declaration with Additional
Exhibits." (Dkt. Nos. 26-27.) On January 22, 2015,
Plaintiff filed a "Request for Compliance" ("Request").
Plantiff requests that the documents to be sealed be
returned to him. (Request at 2-3.)
Based on hearsay, Plaintiff also states that a
pre-trial brief dated November 12, 2013 was mailed to
the court by Deborah Strom with an attached
declaration of Ronal Francis Guilmette, and that Ms.
Strom enclosed a self-addressed, stamped envelope so
the court could return a conformed copy to her. Ms.
Strom did not receive a copy. (Request at 4.) Plaintiff
asks the court to mail him or Ms. Strom a conformed
copy by registered mail. {Id. at 5.) Plaintiff encloses a
$20 bill to pay for the registered mail.
Plaintiff is advised that the court did not receive

20a
Appendix H
the pre-trial brief and therefore cannot return a
conformed copy or the original.
Plaintiffs Request is GRANTED as follows^
(l) The Clerk shall mail the Plaintiff the original
documents to be sealed (21 pages) and the copy (21
pages).
(2) The Clerk shall return the $20 bill to Plaintiff.
In all other respects, Plaintiffs Request is
DENIED.
bh
Initials of Preparer

21a
Appendix I - USPS Return Receipt for Certified Mail,
Dated December 24, 2013
USPS Form 3811:
SENDER: COMPLETE THIS SECTION
0 Complete items 1, 2, and 3. Also complete item 4 if
Restricted Delivery is desired.
D Print your name and address on the reverse so that
we can return the card to you.
□ Attach this card to the back of the mailpiece, or on
the front if space permits
1. Article Addressed to'Marine Pogosyan
Clerk to Magistrate Judge Rosenberg
United States Courthouse
312 N. Spring St.
Los Angeles, CA 90012
2. Article Number (Transfer from service label)
7012 3460 0000 9387 6363
3. Service Type
[X] Certified Mail [ ] Express Mail
[ ] Registered
[ ] Return Receipt for Merchandise
[] C.O.D.
[ ] Insured Mail
4. Restricted Delivery? (Extra Fee) [ ] Yes
COMPLETE THIS SECTION ON DELIVERY
[ ] Agent
A. Signature
[ ] Addressee
X/s/
B. Received by (Printed Name)
J. Lopez
C. Date of Delivery
D. Is delivery address different from item 1? [ ] Yes
If YES, enter delivery address below:
[] No
DEC 24 2013

22a
Appendix J - Order of the United States Tax Court,
Dated December 12, 2011
UNITED STATES TAX COURT
WASHINGTON, DC 20217
Docket No. 14482-10SL
NORMAN DOUGLAS DIAMOND,
Petitioner,
v.
COMMISSIONER OF INTERNAL REVENUE,
Respondent.
ORDER
For cause, it is
ORDERED that pages 74 through 86, inclusive of
the transcript of the proceedings that took place
during the trial of this matter in Los Angeles,
California, on Octber 26, 2011, shall be held under
seal until further Order of the Court.
(signed) Lewis R. Carluzzo
Lewis R. Carluzzo
Special Trial Judge
Dated: Washington, D.C.
December 12, 2011

23a
Appendix K - IRS Ruling on Federal Tort Claim,
mailed March 1, 2017
DEPARTMENT OF THE TREASURY
INTERNAL REVENUE SERVICE
WASHINGTON, D.C. 20224
MAR-1 2017
OFFICE OF CHIEF COUNSEL
Norman Douglass Diamond
1-10-6-201, Sakae-cho
Hamura City, Tokyo 205-0002
JAPAN
RETURN
REGISTERED OVERSEAS MAIL
RECEIPT REQUESTED
Re: Federal tort claim for damages in the amount of
17-017,
Claim
No.
IRS
$10,000,000.00;
GLS-106832-17
Dear Sir:
This is to inform you that the damage claim
referenced above, which you filed under the Federal
Tort Claims Act (FTCA), 28 U.S.C. §§ 346(b),
2671-2680 is denied as your claim is barred under the
FTCA statutory provisions found at 28 U.S.C. §
680(c).
You may contest this determination and bring suit
against the United States in the appropriate United
States district court no later than six months after
the date of the mailing of this notification.
Claims Management
IRS Office of Chief Counsel
General Legal Services
1111 Constitution Avenue, NW, Room 6404
Washington, DC 20224
Tele: 202-317-6999

24a
Appendix L - IRS publication "National Taxpayer
Advocate 2011 Annual Report to Congress Executive
Summary Preface & Highlights",
Dated December 31, 2011
IRS publication^
The complexity of international tax law,
combined with the procedural burden on
an
creates
taxpayers,
international
environment where honest taxpayers who are
trying their best to comply simply cannot. For
some, this means paying more U.S. tax than is
legally required, while others may be subject to
steep civil and criminal penalties. Some U.S.
taxpayers abroad find the tax requirements so
confusing and the burden of complying with
them so great that they give up their U.S.
citizenship. ...
Many U.S. taxpayers abroad are confused by
the complex legal and reporting requirements
they face and are overwhelmed by the prospect
of having to comply with them. Some are even
renouncing their U.S. citizenship for that
reason; about 4,000 people did so in fiscal years
(Fys) 2005 to 2010. Renunciations increased
more than tenfold from 146 in Fy 2008 to 1,534
in Fy 2010, with 1,024 renunciations in the first
two quarters of Fy 2011 alone.

